Audit Information Report 97-07  -  Table of Contents
Summary of Trustee Audit Reports and Findings
Issued During Fiscal Year 1996
Information Report 97-07, (3/97)
TABLE OF CONTENTS
Summary of Chapter 7 Audit Results
Chapter 7 Summary Data
Summary of Chapters 12 and 13 Audit Results
Chapters 12 and 13 Summary Data
Appendix
SUMMARY RESULTS
The Office of the Inspector General (OIG), Audit Division, conducted 2061 audits of trustees administering bankruptcy cases under
Title 11, United States Code, Chapters 7, 12, and 13 during FY 1996. Our audits were
conducted at the request of the Executive Office for U.S. Trustees (EOUST) as part of a
continuing reimbursable agreement between the EOUST and the OIG. A map of the 21 region
U.S. Trustee System appears in the Appendix to this report.2
Chapter 7 bankruptcies involve the collection, liquidation, and distribution of a case.
Chapter 12 bankruptcies involve the adjustment of debts of a family farmer with regular
annual income. Chapter 13 bankruptcies involve the adjustment of debts of an individual
wage earner with regular income. Trustees are fiduciaries charged with protecting the
interest of beneficiaries (creditors) and the debtors' interests. U.S. Trustees appoint
trustees to administer Chapters 7, 12, and 13 bankruptcy cases.
Audits of Chapter 7 Trustees
We conducted 190 audits of trustee's administering over 6,900 Chapter 7 bankruptcy
cases with funds totalling about $271 million. The purpose of the audits was to assess the
quality of the individual trustee's accounting for bankruptcy assets and other cash
management practices and procedures. Our audits sampled over 2,300 cases with funds of
about $207 million. We reported over 900 deficiencies for an average of 5 deficiencies per
report. The most common findings in the Chapter 7 audits were in the areas of accounting
practices and case tracking.
Based on our audits, we issued opinions on the adequacy of the individual trustee's
accounting and cash management practices and procedures. Our opinions are classified as Adequate
(no or non-significant deficiencies noted during the audit), Adequate Except For (less
than significant deficiencies noted during the audit), or Inadequate (significant
deficiencies noted during the audit). During FY 1996, we reported the accounting and cash
management practices and procedures were Adequate for 45 percent, Adequate
Except For 49 percent, and Inadequate for 6 percent of the trustee's audited.
Audits of Chapters 12 and 13 Trustees
We conducted 16 audits of Standing Trustee's administering Chapters 12 or 13 bankruptcy
cases in 13 of the 21 U.S. Trustee regions. The purpose of the audits were to assess the:
(1) fairness of representations in the Standing Trustee's Annual Report; (2) adequacy of
the Standing Trustee's accounting system and internal controls; and (3) Standing
Trustee's compliance with Chapters 12 or 13 of Title 11 of the U.S. Code, Directives and
Guidelines issued by the EOUST, and other applicable laws or regulations. We audited
trustees administering about 1,000 cases which had disbursements to creditors in excess of
$18 million during the period reviewed. We reported a total of 40 deficiencies in the
Chapters 12 and 13 audits, an average of 2.5 per audit. The most common findings in the
Chapters 12 and 13 reports were in the areas of case administration.
We issued opinions on the fairness of the presentation of the Standing Trustee's Annual
Report. Since we cannot confirm caseloads with the U.S. Courts, all our report opinions
automatically become at least 'qualified' (i.e., an exception exists to an 'unqualified'
opinion) even in the absence of any audit-found material deficiencies. Aside from that
issue, some reports had other exceptions which would have resulted in a qualified opinion
in their own right. We issued qualified opinions for the Standing Trustee's audited during
FY 1996.
The tables presented in this report break down the type and number of deficiencies by
U.S. Trustee region, as well as statistical information on deficiencies, opinions, cases,
and funds audited for Chapters 7, 12, and 13 trustees.
1 The audit of Chapter 13 Standing Trustee
Phillip Armstrong was contracted to be performed during FY 1995; however, this audit was
not initiated until FY 1996 because the Standing Trustee did not complete or submit his
annual report to the United States Trustee. Therefore, it is being included as one of the
206 audits performed during FY 1996 reports.
2 Although shown on the map as parts of
United States Trustee Regions 4 and 21, North Carolina and Alabama do not currently
participate in the U.S. Trustee System, and we do not perform any audits in these states.
#####